April 21, 2020
VIA EMAIL/E-FILING
Scott S. Harris
Office of the Clerk
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

Application to Extend Time to Respond to Petition for a Writ of
Certiorari in State of Ohio v. Shawn Ford, Case No. 19-1191

Dear Mr. Harris:
Shawn Ford, pursuant to Rule 30.4, respectfully requests a 30-day extension
of time in which to respond to the petition for certiorari. This extension would move
the due date for the Response from Friday, May 1, 2020 to Monday, June 1, 2020.
The opposing party does not object to this extension.
Undersigned counsel did not represent Mr. Ford in his direct review litigation
below, and though they are familiar with Mr. Ford’s case, they are currently also
managing the litigation in multiple other capital cases. Moreover, the current
COVID-19 pandemic has had an impact on counsel’s ability to complete this work in
an efficient manner. An additional 30 days will enable counsel to familiarize
themselves with the record below and respond to the Petition for Certiorari.
Thank you in advance for your consideration of this request.
Respectfully yours,

Rachel Troutman (0076741)
Supervising Attorney, Death Penalty Dept.

250 E. Broad Street, Suite 1400 ● Columbus, Ohio 43215
614.466.5394 ● 800.686.1573 ● TTY 800.750.0750 ● www.opd.ohio.gov

